"Review of High-Dollar Payments for Louisiana Medicare Part B
Claims Processed by Pinnacle Business Solutions, Inc., for the Period January 1,
2003, Through December 31, 2003," (A-06-07-00085)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for Louisiana Medicare Part B Claims Processed by Pinnacle Business Solutions,
Inc., for the Period January 1, 2003, Through December 31, 2003,"
(A-06-07-00085)
December 28, 2007
Complete Text of Report is available in PDF format (286 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether
Pinnacle Business Solutions, Inc.s (Pinnacle) high-dollar Medicare payments to
Louisiana Part B providers were appropriate.  Twenty-nine of the thirty
high-dollar payments that Pinnacle made to providers were appropriate.  However,
Pinnacle overpaid one provider $19,641 for the remaining payment.  We
recommended that Pinnacle recover the $19,641 overpayment and consider using the
results of this audit in its provider education activities.  Pinnacle
agreed with the finding and recommendations.